<html>
<title> - WITH AMERICAN LIVES ON THE LINE, LESSONS FOR MANAGING THE RUSSIA THREAT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                      WITH AMERICAN LIVES ON THE LINE, 
                   LESSONS FOR MANAGING THE RUSSIA THREAT

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 10, 2020

                               __________

                           Serial No. 116-126

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                       
                               ______                       


               U.S. GOVERNMENT PUBLISHING OFFICE 
41-241 PDF              WASHINGTON : 2021                        
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                                     
                                       

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
THEODORE DEUTCH, Florida             ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island        JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas                FRANCIS ROONEY, Florida
DINA TITUS, Nevada                   BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             GREG PENCE, Indiana
DAVID TRONE, Maryland                RON WRIGHT, Texas
JIM COSTA, California                MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas              TIM BURCHETT, Tennessee

                     Gabrielle Gould, Staff Director
                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Panetta, The Honorable Leon, Chairman, The Panetta Institute for 
  Public Policy (Former United States Secretary of Defense, 
  Former Director of the Central Intelligence Agency, and Former 
  White House Chief of Staff)....................................     9

                                APPENDIX

Hearing Notice...................................................    38
Hearing Minutes..................................................    39
Hearing Attendance...............................................    40

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Gonzalez........................................    41


WITH AMERICAN LIVES ON THE LINE, LESSONS FOR MANAGING THE RUSSIA THREAT

                         Friday, July 10, 2020

                          House of Representatives,
                   Subcommittee on Europe, Eurasia,
                       Energy, and the Environment,
                      Committee on Foreign Affairs,
                                                   Washington, DC,.

    The subcommittee met, pursuant to notice, at 2:29 p.m., in 
via Webex, Hon. William R. Keating (chairman of the 
subcommittee) presiding.
    Mr. Keating. The House Foreign Affairs Subcommittee will 
come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point. All members will have 5 
days to submit statements, extraneous material, and questions 
for the record, subject to the length limitation in the rules. 
To insert something in the record, please have your staff email 
the previously mentioned address or contact full committee 
staff.
    Please keep your video function on at all times, even when 
you are not recognized by the chair. Members are responsible 
for muting and unmuting themselves. Please remember to mute 
yourself after you have finished.
    Consistent with House Resolution 965 and accompanying 
regulations, staff will only mute members and witnesses as 
appropriate, when they are not under recognition, to eliminate 
background noise.
    I see that we have a quorum present. I really want to thank 
everyone on a Friday for doing this. It is an important issue.
    I will now recognize myself for opening remarks.
    Pursuant to the notice, we are holding a hearing to discuss 
``With American Lives on the Line, Lessons for Managing the 
Russia Threat.''
    Two weeks ago, the startling revelations broke that Russia 
put bounties on American troops serving in Afghanistan. This 
week, in the Foreign Affairs Committee, we have been examining 
this egregious attack on Americans and the Trump 
administration's failure to handle it appropriately.
    I think it is important for the public to know this. I have 
personally been involved in four hearings this week alone that 
have dealt with this issue, and that does not include the 
actions of other committees working on their own.
    So I just want to underscore to the people listening that 
they should know that we in Congress are taking oversight of 
this matter very seriously.
    Party politics and everything aside, the one thing, if we 
do nothing else, one of the most basic and most fundamental 
duties is to do everything in our power to keep Americans safe. 
We owe it to the servicemembers whose lives were lost in 
Afghanistan. We owe it to their families. We owe it to every 
member of our military and every American serving abroad who 
puts their life on the line every day in service of our 
country.
    On Tuesday the subcommittee heard from former U.S. 
officials and experts on the Kremlin's network for malign 
actors and systems of corruption that oppress the Russian 
people and sustain its criminal actions, and hybrid warfare. 
That, in your submitted testimony, Secretary Panetta, you note, 
may be even more dangerous than the threats we faced during the 
cold war.
    While invited, it is regrettable that Secretary Pompeo 
declined to participate yesterday in our full committee 
hearing. This is part of a pattern of failure to recognize the 
importance of a unitedand unambiguous U.S. response to the 
escalating threats we face from the Kremlin.
    The members of our committee have many questions about what 
happened, and with the questions of murdered servicemembers at 
hand, it would have been helpful, to say the least, to hear 
from the Secretary himself as we reckon with the gravity of 
this issue.
    To his credit, Secretary of Defense Esper appeared before 
the House Armed Services Committee yesterday, and in response 
to my questioning he acknowledged that he had seen reports of 
payments in response to attacks on our troops.
    Today we are honored to be joined by Secretary Leon 
Panetta, a dedicated public servant who shaped U.S. national 
security policy for decades and whose perspective and range of 
experience on these issues is, frankly, unparalleled.
    Having himself served in the U.S. House of Representatives, 
Secretary Panetta is familiar with the important role the 
legislative branch plays in shaping our national security 
trajectory. Secretary Panetta later served in multiple 
executive functions under two Presidential administrations, 
including as Secretary of Defense, Director of the CIA, and 
White House Chief of Staff.
    We are fortunate to have you joining us today because as we 
try to understand what transpired in the Kremlin's bounty 
scheme, and how much of the Trump administration knew about it 
or not, your experience is uniquely instructive. You are 
someone who has been responsible for American troops abroad, 
for managing a primary element of our intelligence apparatus, 
and for ensuring the President has access to the intelligence 
and resources he needs to carry out the duties of that office.
    Furthermore, Secretary Panetta has overseen and shaped U.S. 
policy toward Russia throughout the course of his career.
    Beyond the specific instance of Kremlin aggression against 
Americans abroad, the resounding takeaway from this week in all 
the hearings so far is we have no Russia policy.
    In its place, we have a misguided, ill-defined, impulsive, 
and, frankly, dangerous series of actions prioritizing the 
interests of the Kremlin over the dedicated efforts of our 
intelligence community, diplomats, and career civil servants.
    The sacrifices of our military and the American national 
security interests should, as always, remain paramount.
    There has been no shortage of information available to 
President Trump about Russia's malign activities, and yet it 
has been one gift to Putin after another, whether it is pulling 
out of the European-supported INF and Open Skies treaties; 
withdrawing our forces from Syria without notice to our allies 
who had troops on the ground; Helsinki; his intent to reduce a 
quarter of our troops in Germany; inviting Russia back to a 
reconstituted G8; pulling funds from the European Deterrence 
Initiative, which was meant to deter Russian aggression; or 
casting blame toward Ukraine when our intelligence community 
had proved Russia was responsible for the attack on our 2016 
election.
    We have been hearing all week that Putin pays attention and 
responds to the actions taken by the United States in concert 
with our allies. Yet the message I hear loud and clear from 
President Trump is: You can do whatever you want because we 
will not hold you accountable.
    That is unacceptable. How long do we have to wait for a 
policy toward Russia that prioritizes, above all else, keeping 
Americans safe?
    That is why these hearings this week are so important, and 
why I was so pleased to have you joining us today, Secretary 
Panetta. We are looking forward to hearing from you about your 
perspective on where we must go here, as a country, in our 
policy and posture toward Russia.
    You have seen successes and failures, and we are running 
out of time to get this right.
    I now yield to Ranking Member Representative Kinzinger for 
his opening statement.
    Mr. Kinzinger. Well, thank you, Chairman Keating, for 
calling this hearing.
    And thank you, Mr. Secretary, for joining us today.
    Since the 2008 invasion of Georgia, Russia has shown not 
only a willingness but an eagerness to develop, test, and 
deploy an advanced set of tools to undermine democracy and 
Western institutions around the world.
    While Russia and its Soviet predecessors have used foreign 
forces to carry out proxy wars against the West, the reports 
that Russian military intelligence, often referred to as the 
GRU, set up a bounty program for American soldiers in 
Afghanistan shows an emboldened Vladimir Putin.
    Let's remember that this is the same unit that is 
responsible for interfering in our elections, using chemical 
weapons against Russian defectors living under NATO protection, 
and invaded Ukraine, a NATO aspirational nation and an EU 
priority partner.
    More recently we have seen the Russian mercenaries 
supporting genocide in Syria, fueling conflict in Libya, and 
propping up the corrupt Maduro regime.
    The fact that Putin is trying to harass the United States 
and Afghanistan should not come as a big surprise. The question 
remains, though, what does Putin gain from this bounty program 
and why does he feel emboldened to carry it out? I believe that 
Putin wants United States to fail in Afghanistan just like his 
country did nearly four decades ago.
    While some of my colleagues will likely try to paint this 
administration as weak on Russia, I do not believe that is what 
is driving Putin's agenda. Lenin once said: You probe with 
bayonets. If you find mush, you proceed. If you find steel, you 
withdraw.
    Over the past decade, Putin has found mostly mush when 
probing the United States. As Congress, we must come together 
and be the steel that forces Putin to think again.
    The first step is recognizing the nature of warfare has 
changed. Following the fall of the Iron Curtain, many in the 
West believed that we would usher in an era of perpetual peace. 
Countries around the world, the U.S. included, gave up on cold 
war policies that made Western institutions the standard bearer 
in a post-Soviet world.
    However, the Russians adapted, learned from their mistakes, 
and reinvigorated their tactics to fit the 21st century. They 
have been operating within a gray space that is neither war nor 
peace, and we must now change how we respond to these clear 
provocations.
    Contrary to popular belief, this administration has pushed 
back against Putin. Take the incident in 2018, when Wagner 
mercenaries and forces loyal to Assad attacked U.S. troops in 
Syria. Within 4 hours, hundreds of Russians and Syrians were 
neutralized. The Wagner Group did not provokaye U.S. forces 
ever again.
    Not every provocation from Russia can be met with kinetic 
action. In fact, on the contrary, our greatest weapon is the 
alliance of like-minded nations that have defended freedom 
since 1949.
    It is in our best interest to work with our allies, much 
like we did throughout the cold war, to develop and implement a 
strategy to counter Putin's malign activity. Much like Putin 
did over the past decade, we need to dust off the old cold war 
playbook to confront the Russian threat.
    The good news is that despite all of Putin's foreign 
operations, he has not benefited domestically. Nearly 50 
percent of Russians opposed waiving Presidential term limits 
for Putin, nearly 60 percent believe the President should not 
be as old as Putin is, and only 25 percent of the Russian 
people trust Putin's plan for their country. If this does not 
demonstrate that Putin's strategy failed, I do not know what 
does.
    Again, I want to thank Secretary Panetta for joining us 
today. We will have plenty to talk about.
    And with that, I will yield back to you, Mr. Chairman.
    Mr. Keating. Thank you, Representative Kinzinger.
    I will now introduce our witness.
    And, again, thank you for being here today again.
    Secretary Leon E. Panetta is chairman of the Panetta 
Institute for Public Policy. His distinguished career in public 
service, as I mentioned before, includes serving as the 23rd 
United States Secretary of Defense, the Director of the Central 
Intelligence Agency, White House Chief of Staff to President 
Bill Clinton, Director of the Office of Management and Budget, 
and most importantly, as a Member of the U.S. House of 
Representatives from California.
    I will now recognize the witness for 5 minutes.
    And without objection, your prepared written statement will 
be made part of the record.
    You are now recognized for your opening statement.

STATEMENT OF THE HONORABLE LEON PANETTA, CHAIRMAN, THE PANETTA 
INSTITUTE FOR PUBLIC POLICY (FORMER UNITED STATES SECRETARY OF 
 DEFENSE, FORMER DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY, 
             AND FORMER WHITE HOUSE CHIEF OF STAFF)

    Mr. Panetta. Mr. Chairman, thank you. I would like to 
submit my testimony for the record, and if I could, try to 
summarize it for your benefit.
    Mr. Chairman, Mr. Ranking Member, distinguished members of 
the subcommittee, thank you for the opportunity to be able to 
testify about the significant threat that all of you recognize 
from Russia and the threat that Russia poses to our troops and 
our democracy and our Nation.
    I had the honor to serve in the House for 16 years, from 
1977 through 1993. It was the height of the cold war between 
the United States and the Soviet Union, through the end of the 
Vietnam era, the Reagan buildup, the fall of the Berlin Wall. 
And I have to tell you, during that time Congress played an 
enormously important role in conducting oversight, whether it 
was a Republican administration or Democratic administration, 
to ensure that our national security interests were protected 
during that cold war.
    I want to commend all of you, Mr. Chairman, and all of your 
members, for your continuing critical oversight to make sure 
that we protect our country.
    Let me begin by making clear that there is little question 
that we are in a new chapter of the cold war with Russia. But 
this new chapter, with Vladimir Putin's Russian Federation, is 
in some ways more dangerous than what we faced with the old 
Soviet Union.
    With the Soviet Union, we were in rough parity with our 
nuclear capabilities. They knew our strength, we knew their 
strength, and in some ways that gave us leverage to be able to 
deal with them from a position of strength.
    To deal with Vladimir Putin, you have to deal with him from 
a position of strength. If he senses weakness on the part of 
the United States then, make no mistake, he will take advantage 
of it, because he knows he does not have to pay a price. And 
thus we have seen him take advantage of it through his 
aggression in Crimea, in the Ukraine, in Syria, in the U.S. 
election process, in Libya, in Afghanistan, and other places.
    The point is very clear, and I think it is clear to all of 
you, that if we fail to draw lines on Putin, if we do not make 
clear where those lines are and make clear that he will not be 
allowed to cross those lines, then he will continue to be 
encouraged to be aggressive.
    The principal point is this. In this new cold war chapter 
what is required is a resolute, clear-eyed, strong, unambiguous 
leadership from the President and the rest of our government 
that is informed by our diplomatic, military, and intelligence 
professionals and guided by the need to protect our national 
security interests. That has got to be the message that Putin 
hears.
    Some of you may remember President Bush once said that he 
looked into Putin's eyes and saw somebody that he thought he 
would be able to deal with. My friend and former colleague, Bob 
Gates, said that he too looked into Putin's eyes and saw KGB, 
KGB, KGB.
    Putin believes that the glory of the former Soviet State 
must be restored. He believes the fall of the Iron Curtain 
brought with it an era of weakness in Russia, and he is 
determined to return Russia to the status of a global 
superpower. And the key to that strategy is to undermine the 
United States and to weaken our country and weaken our foreign 
policy.
    But Putin has his own problems. The Russian population is 
aging, it is shrinking. By the economy, Russia is struggling. 
There is a mix of an overburdened socialist State with a very 
corrupt core of oligarchs who have literally stolen billions of 
dollars from the Russian people. They have serious social and 
economic issues.
    No democracy would tolerate the kind of mismanagement and 
corruption that we have seen there, and that is why Putin has 
done away with any semblance of democracy. He has pushed 
through constitutional referendums, as we know, just recently, 
that allows him to be a virtual dictator through 2036.
    Russia's strategy to restoring its superpower status is 
dependent on the following elements.
    First, they clearly want to undermine NATO and its key 
missions. NATO has been a barrier to the ability of Russia to 
expand back to the Soviet State.
    Second, they want to undermine U.S. military presence in 
Europe. By that presence, our forces in Europe have been a 
check on Russian ambitions.
    Third, he wants to reinsert the Russian regime back into 
the G7 to be able to regain the status that they lost when they 
were kicked out because of their invasion of the Crimea.
    Fourth, they believe that interfering in United States and 
other Western elections has sown chaos and discord, and they 
are seeking an election result in all areas that are favorable 
to Russia.
    And last, they have developed and in some ways perfected 
hybrid warfare. Russia cannot match the U.S. in a force-on-
force conflict, but they have developed asymmetric power, 
hybrid power. They have used a mix of civilian-military 
capabilities to undertake deniable, lethal, covert operations, 
they have engaged, obviously, in election interference, the 
recruitment of spies and agents, the theft of technology, they 
have taken prisoners, all to gain geostrategic leverage without 
triggering conventional conflict with the West.
    What we saw with the latest intelligence of the possibility 
that Russians were using bounties in many ways comes right out 
of Putin's playbook. I have not read the intelligence 
assessment, but I think we all need to take these reports very 
seriously, because, as I said, it fits Putin's playbook, the 
playbook that he has used as a result of his concerns in 
Afghanistan and other areas.
    He still resents what the United States did in Charlie 
Wilson's War, when we kicked the Soviet Union out of 
Afghanistan in the 1980's. He believes we have used the Afghan 
war as a pretext to position U.S. military and intelligence 
assets on the doorstep of Russia.
    And he resents the fact that the Afghan war has been a NATO 
mission. His goal is to fracture NATO, and their sense is, the 
best way to fracture NATO is to bring them down in Afghanistan, 
which is the graveyard of empire.
    He pays mercenary forces to come after us, and that is very 
consistent with Putin's methods. They developed the Wagner 
Group to attack our forces in Syria, take over oil facilities 
in Libya. They have conducted assassination attempts in the 
U.K. against former spies. And, obviously, they have conducted 
this bold attack in our own democracy in the 2016 election.
    The assessment is very clear: There is no question here 
that Russian President Vladimir Putin ordered an influence 
campaign in the 2016 election aimed at trying to influence what 
happened in the U.S. Presidential election.
    And they further assessed--and this is something we have 
just got to continue to remind ourselves--that Putin is going 
to apply the same lessons in the current election in this 
country, as well as in elections that are taking place with our 
U.S. allies.
    This is not a hoax, it is a real threat, it works, and you 
can look at the consequences. It has strained relations between 
the United States and NATO allies. There was even the 
possibility at one point that we might pull out of NATO. And, 
very frankly, the entire military structure we have used to 
contain Russia could fall apart if we did that.
    They have paid no price for annexing Crimea, and, 
obviously, they believe that the President has, in many ways, 
given Russia and Putin a pass on Crimea and the Ukraine. They 
have seen a United States that is slow to enforce sanctions--
sanctions passed by the Congress, by you.
    And although the President invited Russia back into the G7, 
the reality is that that invitation contained no concession on 
the part of the Russians.
    The U.S. also is set to redeploy 9,500 U.S. forces from 
Germany, forces that are critical to signaling U.S. resolve 
with our allies.
    What are the steps required to counter this Russian threat? 
Let me end by summarizing them.
    One, I do believe we have to make clear where the lines are 
that cannot be crossed, make very clear that he will not get 
away with attacks on our forces, and that we will respond, 
through diplomatic isolation, through sanctions, and through 
military force if necessary.
    We have to recommit to the NATO alliance. Look, Russia and 
China are our primary adversaries at this point in time, and 
what is the one thing that they cannot do? They cannot form 
alliances. They fear alliances. And so our ability to develop 
and maintain alliances is one of our best weapons against those 
adversaries.
    Third, we have to make sure that we do protect free and 
fair elections in this country, free from Russian interference.
    And fourth, we do have to read and listen to intelligence 
assessments about Russia. This is information that is gathered 
at great risk. Our intelligence professionals--and you have 
heard from many of them--have spent their careers analyzing the 
Russian Federation and Putin. They understand what Putin is up 
to, and they can be very helpful in providing a heads-up to the 
President and to this country about what Putin is trying to do.
    Look, no leader--no leader--can act responsibly for this 
country without good intelligence. That is the bottom line.
    Fifth, I think it is important to suspend the actions to 
redeploy forces from Europe. This is the wrong time to be 
moving forces out of Europe. And again, it sends, I believe, a 
message of weakness to Russia.
    We have to finally rededicate ourselves to the values that 
make America strong and free. At the end of the day, what Putin 
fears the most, very frankly, is our values. They threaten the 
power he is trying to consolidate. Freedom of the press, 
freedom of speech, equality of all citizens, all of that 
undermines the strength that he is trying to assert in Russia. 
The greatest threat to Putin is the values that are our 
greatest strength in this country.
    So let me conclude by saying, the United States has to be 
clear with Putin. We cannot afford to send mixed messages to an 
adversary. We must make clear that there are lines that we will 
not allow Russia to cross.
    One of those lines has to be that we will not tolerate any 
involvement by Russia in killing U.S. men and women who are 
putting their lives on the line for this country.
    Look, as Secretary of Defense and CIA Director, I was 
involved in deploying our young men and women into harm's way. 
I had to go to Dover to receive our fallen heroes and give 
condolences to their families on behalf of a grateful Nation. 
This is about life and death. Life and death.
    Mr. Chairman and members of the subcommittee, I think all 
of us owe it to our troops and to their families to answer a 
very simple question: What did our government do to protect our 
troops? And if Russia did put a price on the heads of our men 
and women in combat, what price will Russia pay for doing this? 
Americans are entitled to know that we did everything necessary 
to protect our troops, our national security, and our 
democracy.
    Thank you.
    [The prepared statement of Mr. Panetta follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Keating. Thank you, Mr. Secretary, for your testimony, 
the comprehensive breadth that you gave to that.
    I will now recognize members for 5 minutes each, pursuant 
to the House rules. All time yielded is for the purposes of 
questioning our witness.
    Because of the virtual format of the hearing, I will be 
recognizing members by committee seniority, alternating between 
Democrats and Republicans. And if any of you miss your turn, 
please let your staff know, and we will circle back to you. If 
you seek recognition, you must unmute your microphone and 
address the chair verbally. And I will start this by 
recognizing myself for 5 minutes.
    Mr. Secretary, I would like to start where you ended your 
opening remarks. In my life, in my younger years, the most 
sensitive conversations I had with my father and my grandmother 
were when they were talking about the circumstances around 
which my uncle was killed in action. It left an indelible 
imprint in my mind and my values.
    So I agree with you, this is about being responsible and 
respecting our servicemen and--women and families who lost 
loved ones.
    And so I just want to underscore your point, honoring our 
fallen heroes and their loved ones would mean taking action--
taking action--creating consequences, to hold Putin and the 
Kremlin accountable, correct.
    Also, I just want to start with your background in terms of 
your intelligence background. I would like to turn next to the 
intelligence aspect of this.
    Would it have been plausible in the administrations that 
you served in for this type of intelligence not to have been 
briefed to the President? Not just the initial briefing, but 
briefings before there were six calls, six personal calls from 
March thereafter between the President and Putin; before 
slashing funds for the European Deterrence Initiative, which 
was set up to curb Russian aggression; before inviting Russia 
and Putin to the newly constructed G8, after they were thrown 
out for their aggressive actions in Ukraine that resulted in 
13,000-plus Ukraine deaths; and before ordering a quarter of 
our troops out of Germany. Is it plausible that there would not 
be a briefing in the administrations you served with in any of 
those instances?
    Mr. Panetta. The role of Commander in Chief is to be able 
to support and defend our men and women in uniform who do put 
their lives on the line in order to protect our country. And if 
we received intelligence--frankly, as you have heard, 
intelligence that is presented as part of the PDB varies in 
terms of its credibility. And it can be low credibility, it can 
be moderate, it can be high credibility.
    But if there is intelligence that indicates that there is a 
possibility that the Russians were putting a bounty or putting 
a price on the heads of men and women in uniform, that 
intelligence would be brought to the attention of the President 
immediately, because that does involve the lives of our men and 
women in uniform, that does involve the responsibility that the 
President and our military leaders have to be able to protect 
those that are out there in combat.
    So I find it very surprising that that kind of information 
was not brought directly to the President of the United States. 
I think that the National Security Advisor, I think those who 
provide the intelligence briefings to the President, have an 
obligation--an obligation--to bring that kind of sensitive 
intelligence to the attention of the President of the United 
States.
    Mr. Keating. Well, quickly, Mr. Secretary, if I could, 
there has been a lot of discussion about the levels of 
certainty. And again, given your background, would it be 
something--maybe you can give us some--shed some light on these 
things.
    It would not be random or noncorroborated at all, in your 
experience, if something was brought to the Presidential Daily 
Briefing, if it was information, it was shared--very high 
intelligence information--shared with an ally like the U.K., 
and that has been reported in this instance, so they could 
protect their troops? Or maybe you could tell us about the CIA 
WIR, the World Intelligence Review, and these are significant 
benchmarks of intelligence.
    I am almost out of time, but if you can just shed some 
light, because this seems to be the discussion of the week.
    Mr. Panetta. Well, again, there is no question that, 
certainly when I was Director of the CIA, if we had information 
that that was taking place and it involved our NATO allies, 
that we would immediately share that with our allies so that 
they would be aware of it as well, because it involves their 
lives.
    And so, first of all, it would be shared with our allies. 
But most importantly, it is the kind of intelligence that I 
think it is the duty of those in the White House and in the 
intelligence community to bring that information to the 
President. Even though they may think it is not fully 
corroborated, even though they may think it is not fully backed 
up, that does not make any difference. That is very sensitive 
intelligence information that the President of the United 
States should know and should act upon.
    Mr. Keating. Thank you. That is right on point, and thank 
you for answering it so directly.
    I now call on Representative Kinzinger, who can have the 
additional time that I took if he so desires, to go over the 5 
minutes.
    Representative Kinzinger.
    Mr. Kinzinger. Well, thank you, Mr. Chairman.
    Again, Mr. Secretary, thank you for being here.
    I think the question of was the President briefed, I mean, 
I believe he was not. I believe that we can debate, and I think 
it is probably a good debate within the administration, of 
whether he should have been, because as the Secretary 
mentioned, it is a pretty serious accusation. I am not sure if 
the intel was to the point yet of actionable, and so I think a 
decision was made there.
    You know, one of my concerns about this is Russia and, 
quite honestly, foreign policy should be a bipartisan issue. 
And I think--and it is nobody on this committee, and I mean 
that--but some people quickly jump to accusations of ``the 
President loves Russia'' and this kind of stuff, and I think 
what that does is it makes it more likely that this becomes 
partisan and that both sides get defensive.
    But that said, I think we need to get to the bottom of it, 
and I think it is a very, very serious accusation that we 
should find out if true.
    Mr. Secretary, do the Russians want to accelerate the U.S. 
withdrawal in Afghanistan? Do they want to bog us down in the 
country for the next decade? Or does the outcome not matter for 
them?
    Mr. Panetta. I think the answer is ``yes'' to all of the 
above, because I think their interest is to try to undermine 
the position of the United States there. And they are going to 
take advantage of every opportunity.
    I mean, if they think--and I think this is probably the 
more likely scenario--if they think that the President is going 
to be trying to remove our forces from Afghanistan, they are 
going to try to do everything possible to try to encourage that 
result.
    And I think part of what was involved in this possible 
intelligence was that they were trying to, obviously, get 
Americans killed, have those bodies returned to Dover, and have 
those families basically say that enough is enough, and urge 
the President to bring those troops home. I think that was part 
of the game here.
    But in my experience the Russians were involved in a number 
of ways with the Taliban and with our enemies, either providing 
support or providing weapons, to try to assist those that were 
going after American men and women.
    Mr. Kinzinger. So let me ask you two questions then--and I 
think the point you make is extremely important--two specific 
questions.
    If this intel is proven correct and we get whatever, high 
confidence, we find out it is correct, what do you think we 
should do in response?
    And then also, if you could piggyback on that, what do you 
think we should do with regards to the, quote/unquote, peace 
deal?
    I disagree with a lot of what the administration is doing 
on Afghanistan, to be very clear. I think it is a relatively 
minor investment for what the alternative would be if we left. 
But if you could answer those, that would be great.
    Mr. Panetta. Look, I think it is very important that if 
this information is further corroborated, that the President of 
the United States has to make very clear--and the President has 
to do this--the President has to make very clear to Russia and 
to Putin that we will not tolerate this kind of behavior and 
that we are going to take all necessary action to protect and 
defend our forces.
    He needs to get that message. We do not have to go into 
particulars. But I think that larger message needs to be sent, 
that this is not to be tolerated.
    With regards to the situation in Afghanistan, I think we 
have got to be very careful not to make the same mistake we 
made in Iraq.
    And I was concerned about that because I thought if we 
withdrew all of our forces there and did not continue to have a 
presence in Iraq, in trying to work with their security forces, 
with their intelligence forces, to be able to deal with al-
Qaeda and try to make sure that they did not restore any kind 
of power in Iraq, that what would happen is exactly what did 
happen, which is the creation of ISIS, and then the invasion, 
and then the necessity for the United States to go back in and 
try to defend that.
    Now, if we just suddenly pull out all of our forces out of 
Afghanistan and do not have some kind of rational basis on 
which to maintain a presence, to make sure that the Taliban 
does not take control of that country and that al-Qaeda and 
ISIS do not take control of that country, then I think we are 
making a big mistake.
    So it is not so much whether or not we ought to look at the 
possibility of withdrawing some of our forces there. The bigger 
question for me is, are you taking steps to make sure that you 
are not handing Afghanistan back to those who attacked us on 9/
11?
    Mr. Kinzinger. Thank you. And, Mr. Secretary, a great deal 
of respect for you. Thank you for being here.
    The last thing I will say is, in Afghanistan the difference 
between the Russians and us is the Afghan people want us there. 
It is 80 or 90 percent agreement.
    So with that, thank you, Mr. Chairman, Mr. Secretary. I 
yield back.
    Mr. Panetta. Thank you.
    Mr. Keating. [Inaudible] Is Mr. Meeks of New York.
    Mr. Meeks. Thank you.
    Mr. Secretary, thank you for your testimony. Thank you for 
being here. And thank you for being the great patriot that you 
are and all that you have done.
    You have talked, and listening to your testimony today, you 
observed that the administration has been slow to enforce the 
sanctions against Russia.
    So now, in light of the credible allegations that the 
Russian Government put bounties on our U.S. armed services in 
Afghanistan, my question is, can you talk to the effectiveness 
of the United States' current sanctions regime?
    And are the sanctions that we have in place now an 
effective instrument to counter what I call Putinism? That is 
President Putin's brand of authoritarianism and economic 
kleptocracy.
    And how would you counter those who say, because some say 
Putin's approval ratings may be on the decline, but sanctions 
have done little to deter Russian aggression worldwide.
    So what would you say about that and about what we need to 
do and what kind of sanctions we should put in place?
    Mr. Panetta. Yes, thank you for that question.
    Look, I would urge the administration to look at their 
approach to sanctions against Iran and apply those same 
sanctions, same processes, that they have applied there. And 
they have applied very strong sanctions against Iran in every 
area. We have gone after their banking capability. We have gone 
after their ability to sell oil. We have gone after the very 
heart of their economic ability to stay alive. We have done 
that.
    And the argument by the administration is that continuing 
to press on those sanctions is, in their minds, what will bring 
Iran ultimately to the table to negotiate.
    Now, I am not sure that is going to be the ultimate 
approach here. But what I am saying to the administration, I 
think what should be said to the administration, take the same 
approach that you are using against one adversary, Iran, and 
apply exactly the same kind of pressures with regards to 
Russia. Because if we did, mark my words, it would send a clear 
signal to Putin that we are serious about making sure that they 
stop the aggression that they have been involved with.
    Mr. Meeks. Thank you for that. I think that that gives us 
more work that we could do in Congress as far as passing those 
similar-type sanctions that you just indicated that we have on 
Iran, on Russia, and see what the President does with that.
    Because as I said in yesterday's hearing, for his silence, 
not even saying that he is going to go after and check out 
everything, and if there is anything that is possible to be 
found he is going to go after them, we have not heard that. We 
have not heard anything from the administration. And silence, 
in my viewpoint, is complicit to a large degree.
    And when it comes to our men and women who are putting 
their lives on the line, we have got to stand up for them in 
that regard.
    And in my last few minutes, you also testified about the 
strong support and the need for us to make sure that NATO--in 
our Transatlantic Economic Relations Subcommittee, of which I 
am the co-chair, of the NATO PA, we have had this conversation 
going back and forth, and I make the case that a strong NATO is 
beneficial to the United States and our transatlantic 
relations, just as you have.
    So you have explained to a large degree why the U.S. 
support for the Euro-Atlantic security institutions, like NATO, 
serve as the bulkhead against Russian aggression and that we do 
not need to withdraw our troops from Germany. So can you better 
say how we should send that message to the American people, so 
that they know that we need to make this stronger case about 
how important NATO is to us and our national security 
interests?
    Mr. Panetta. Well, I am a strong believer in the importance 
of our NATO relationship. As both Director of the CIA and also 
as Secretary of Defense, I cannot tell you how important it was 
to be able to work with our allies, not only in sharing 
intelligence, but in doing security work together and in taking 
steps to be able to protect the security of Europe and of the 
United States.
    I mean, we could not have done that without NATO. This goes 
back to what Harry Truman did, for God's sakes, in establishing 
not only NATO, but the Marshall Plan and the other steps that 
were taken, in order to contain Russia. And they have been 
successful, I think in some measure were responsible for 
bringing down the Berlin Wall.
    So I am a big believer that we need to maintain our NATO 
alliance and to maintain our presence there.
    I think the President ought to do two things.
    No. 1, make clear to Russia that we will not tolerate the 
Russians doing anything to target our men and women in uniform.
    Two, that we are going to maintain our force strength in 
Germany and elsewhere as part of our NATO commitment to ensure 
that Russia will not take any steps of aggression against other 
former Soviet States.
    And third, I think, diplomatically, strengthening those 
sanctions you talked about should be part of the package, so 
that Putin gets a clear message that we are not going to 
tolerate his behavior. That message of strength will take us a 
long way toward making clear that Putin is going to pay a price 
for behaving the way he does. And right now, that message is 
not there.
    Mr. Meeks. Thank you. I yield back.
    Mr. Keating. Thank you.
    The chair recognizes Representative Brian Fitzpatrick from 
Pennsylvania.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. And thank you for 
calling such an amazing and highly respected witness.
    And, Mr. Secretary, I always say this when I talk to you, 
the apple does not fall far from the tree with your son, the 
finest man I know.
    And thank you for being you, thank you for always putting 
your country ahead of your party. Because of that, you have 
more respect than you realize across the political spectrum, 
including from every Republican that I know. And I wish we 
could clone and replicate you, sir.
    So I just wanted to say that at the outset.
    Two things. And I had to jump off, so I do not know if this 
question was asked before. No. 1, with regard to--because in 
your role as Director of the CIA--if you could just help me and 
the panel and my colleagues understand how the Presidential 
Daily Briefing works, as far as inclusion, exclusion, what gets 
orally briefed versus what does not, and to what extent 
different people should be held responsible regarding 
omissions.
    And my second question is, with regard to Vladimir Putin, 
who you probably understand better than any of us, what do you 
believe his ultimate goals are, and what do you believe his 
greatest fear is? Because it is always helpful to know what 
these people fear. What do you think he fears?
    Mr. Panetta. Okay. Thank you for that question.
    You have had some testimony to this respect, but basically 
what we do with the Presidential Daily Brief is to summarize 
all of the intelligence that has come in during that evening 
that involves threats to the United States. I mean, it can 
contain other information, but it is largely dealing with 
threats that are out there.
    And there is a lot of work done to scrub the information 
that comes in. There is a great deal of information that comes 
in from all of our sources around the world, and so there is a 
process of trying to scrub down what is the key intelligence 
that we are receiving and that the President should be informed 
of. That is contained then in the PDB.
    For those of you that have not seen a PDB, it can be a 
number of pages, depending on the intelligence that has come 
across, but it is not--you know, I understand the President's 
reluctance to look at some of that stuff. I have to tell you, 
it is not a very comforting read when you look at the PDB, 
because you are reading about all the threats that are possible 
against the United States, and it can start your day off on the 
wrong foot by virtue of that.
    But nevertheless, it is important information that the 
President needs to have and that other policymakers need to 
have.
    And so when it is presented to the President in the 
briefings, I mean, do not forget, this PDB is circulated not 
just to the President, it is circulated to other key 
individuals in the administration--the National Security 
Advisor, to the Chief of Staff, to the Cabinet, key Cabinet 
members, Secretary of Defense, Secretary of State--so that all 
of them are briefed.
    I mean, normally a briefer is assigned to all of those key 
people. And the briefer will go through the PDB. I mean, your 
first responsibility is to read the PDB, and it is, as I said, 
it is a lengthy read. So it is important to have a good 
briefer.
    The briefer will sit down and go through the key elements 
of the briefing and highlight key information and respond to 
your questions. That is usually what is done, and I am sure it 
is done with the President and with these other individuals.
    So in some ways, even though the briefer may not have 
touched on everything, it is the responsibility of the person 
who gets the PDB to read the damn thing. And as I said, I know 
it is tough. I know it can be time consuming. But there is a 
lot of important information there.
    So I am a little concerned that other people who, if this 
was, in fact, contained in the PDB, why others did not raise 
this as well as a result of it. It is not just up to the 
briefer. It is also up to the individual who has to read the 
PDB.
    With regards to Putin, I do not think there is any 
question, as I mentioned--and I think Bob Gates got it right--
this guy is a KGB officer. He thinks like a KGB officer. He is 
immersed in all of the tactics and the methods of spies. That 
is what he cares about.
    I will tell you just quickly one incidence. When we were 
dealing with ten Russian agents who had been planted here in 
the United States, and we were able to discover that they were 
there, we arrested them and we tried to work out--and we did--
work out a trade with Russia.
    At the time I talked to my Russian counterpart, with the 
intelligence there, and I said: Will you agree to this trade? 
And he said at that time--and Putin was not even President--he 
said: We have to talk to Putin about whether or not we can make 
this trade. So Putin had his hands on all of that, the 
intelligence, in trade, that goes on.
    His goals are to really restore the former Soviet Union. He 
thinks that that was a great tragedy, that they were weakened. 
And I think his goal is to gradually do what he did in Crimea 
with regards to others, other countries that were former 
members of the Soviet State.
    His greatest fear--his greatest fear--is that if the United 
States remains strong and remains true to our values, that 
ultimately, if we can work with our allies, that we can weaken 
Russia and bring them down the same way that the former Soviet 
Union went down. That is what he fears. And that is why his 
primary goal is to undermine our strength and undermine our 
values.
    Mr. Fitzpatrick. Very helpful for that perspective, Mr. 
Secretary. Thank you.
    Mr. Chairman, I yield back.
    Mr. Keating. Thank you.
    The chair recognizes Mr. David Cicilline from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you for 
convening this hearing.
    Mr. Panetta, Mr. Secretary, just to let you know, the 
admiration of your son is bipartisan. So we all feel a 
tremendous honor to serve with him.
    Mr. Panetta. Thank you.
    Mr. Cicilline. Thank you for your extraordinary service to 
our country.
    As you said, we have no more sacred responsibility than to 
honor the lives lost in defense of our country. And sharing 
words of appreciation is not sufficient. We must act consistent 
with that obligation, and our most basic response has to be to 
condemn this action, punish it, and deter it from ever 
happening again.
    And, of course, the President has to understand that his 
responsibility as Commander in Chief to support and defend our 
men and women in uniform goes beyond trying to plan a military 
parade, but actually is fundamentally his most important 
responsibility.
    And when the briefing was provided to the senior members of 
our caucus at the White House, Mr. Hoyer came out of that 
briefing and said, ``Nothing in this briefing that we have just 
received led me to believe it is a hoax,'' which is what the 
President claimed. And Mr. Engel, the chairman of the Foreign 
Affairs Committee, said the American people deserve to know why 
the President did not condemn Vladimir Putin: ``For God's sake, 
these are our soldiers, and if we are not going to protect 
them, what are we going to do?''
    And so my question is, the National Security Advisor, Mr. 
O'Brien, began to prepare options for the President to consider 
in response to this intelligence. And so my first question is, 
is it the normal case that there has to be some level of 
intelligence before the difficult process of developing a set 
of options to respond occurs?
    And second, in order to be included in the Presidential 
Daily Brief there has to be some intelligence to support it, 
whether it is moderate, high, or low confidence. But the 
Presidential Daily Brief does include rumors or innuendos or 
unsupportedallegations, is that fair to say?
    Mr. Panetta. Absolutely. The intelligence that is there 
ranges across a vast spectrum of credibility. But let me just 
give you an example.
    If there were intelligence there that a nuclear weapon had 
been planted someplace in Washington, DC, and let's assume that 
there just was not a lot of credibility assigned to it, but 
just the mere fact that there may be a nuclear weapon in 
Washington, DC, is significant enough that you better damn well 
alert the President of the United States to that possibility.
    Mr. Cicilline. Yes. And I think the challenge and the 
question that I had, Mr. Secretary, is sort of the elephant in 
the room, and that is, you have spokayen a lot about strong 
condemnations, about not moving troops out of Europe, a number 
of steps, working more closely with our allies.
    But these are suggestions you made in the context of a 
President who from the day he took office has expressed 
admiration for Vladimir Putin, has described Russian 
interference in our Presidential campaign as a hoax, stood at 
Helsinki and sided with Vladimir Putin against the U.S. 
intelligence community.
    And so my question is two-part, is, what can we do in that 
context where the President of the United States refuses to do 
all the things you described? Can Congress substitute in a 
meaningful way?
    And the second part of that question is, what damage does 
it do and what does Vladimir Putin think when he hears the 
President say those things and behave that way in terms of 
future aggression?
    Mr. Panetta. Well, as all of you know, you know, the 
Members of Congress, obviously, you can play a very important 
role in terms of oversight. You can play a very important role 
in terms of trying to move legislation that will send a 
message. You can play a very important role in terms of what 
you do to educate your constituencies about these issues. But, 
in the end, it is the President of the United States who is 
Commander in Chief and who has the power to be able to speak on 
behalf of the United States to our foreign adversaries.
    I find it really difficult--and, you know, as a former 
Chief of Staff, having worked with the National Security 
Advisor--that they would not, when this issue came up, make 
very clear that the President needs to speak to this issue to 
Putin and to the country about this possibility. And, you know, 
they could have made references to the questions they have 
about the credibility of the intelligence, but the fact is that 
that intelligence is so critical because it does involve the 
lives of our men and women in uniform.
    I mean, look, you know, as Secretary of Defense and, I am 
sure, as many of you have gone abroad, and you look into the 
eyes of our men and women in uniform, and these are brave young 
people who are willing to fight and die for this country. I 
mean, talk about getting a sense of confidence about what the 
strength of America is. Look into the eyes of our men and women 
in uniform and what they are willing to do. And, if you do 
that, then we owe them every step necessary to help protect 
their lives.
    And so, when you get this kind of information, I think the 
National Security Advisor, I think the Chief of Staff, I think 
the Secretary of Defense and the Secretary of State should have 
gone immediately to the President of the United States and 
said, you need to issue a statement that makes clear to Russia 
that this should not happen.
    I mean, rather than having the President say, ``Well, I 
never saw it,'' or, ``Nobody ever told me,'' and having the 
National Security Advisor say, ``Well, you know, it just was 
not the right kind of intelligence to present to the 
President,'' I mean, push all of that aside. The fundamental 
issue is, are you going to protect our forces? Are you going to 
protect our men and women in uniform? That is what they should 
have focused on, and that should have been the main message 
coming out of the White House.
    Mr. Cicilline. Thank you, Mr. Secretary, very much.
    And I yield back, Mr. Chairman.
    Mr. Keating. Thank you.
    The chair recognizes Mr. Tim Burchett from Tennessee.
    Mr. Burchett. Right on. Can you hear me, Mr. Chairman?
    Mr. Keating. Loud and clear.
    Mr. Burchett. Thank you, Mr. Chairman. Thank you for 
putting together this important meeting.
    Mr. Secretary, I could lay on all the accolades, but I 
think the best thing that you ever did is make a really cool 
son. I dig him. He is a good dude, man, and he is a good 
friend, as I told you earlier.
    But, anyway, that is what we do here in the South; we say 
something nice for you and then we go for the jugular.
    Mr. Panetta. ``With all due respect.''
    Mr. Burchett. Yes, ``with all due respect,'' or, ``I am 
putting you on my prayer list,'' you know. That is the way we 
gossip too, you know, in church. We say, ``Oh, we need pray for 
old so-and-so. I think he is hitting the bottle a little bit 
much,'' you know, or whatever.
    But, anyway, hey, all kidding aside, I had a question, and 
it is changing lanes just a little bit. It is well-documented, 
though, that the Russians--and for the record, I do not like 
Putin. I think he is a thug. You know, we try to be diplomats. 
And I know that is probably--here is Tim Burchett, thinks he is 
a thug. I know he probably quakes in his Gucci loafers because 
the 435th most powerful man in Congress is calling him out. But 
I do not like the guy, I do not care.
    But I know it is well-documented that the Russians operated 
a spy ship called the Yantar. And the ship carries submersibles 
that can tap into and even sever our undersea fiberoptic 
cables, which would slow our communication with our allies 
considerably. Additionally, the Russian subs are known to 
operate close to these cables.
    I was wondering if you could discuss the Russian submarine 
fleet and specifically the threat that it poses to our undersea 
cable network and what we can do to protect the flow of data.
    Mr. Panetta. Well, it is a very good point for you to look 
at, because, make no mistake about it, the Russians are engaged 
in whatever efforts they can engage in in order to try to 
either take our technology or interfere with our communication 
or, obviously, interfere with our election process. You know, 
that is what the Russians are all about.
    Mr. Burchett. Right.
    Mr. Panetta. And they do it, obviously, through their 
intelligence forces and their spies, but they also use their 
military for that purpose as well.
    A lot of what you are asking, you know, wanders into 
classified territory, so I am a little hesitant----
    Mr. Burchett. I understand that.
    Mr. Panetta [continuing]. To go into the specific 
operations.
    Mr. Burchett. I understand that.
    Mr. Panetta. But make no mistake about it, the Russians are 
trying to conduct efforts that interfere with the 
communications that go on between the United States and the 
rest of the world, and they have very sophisticated equipment 
to be able to accomplish that. That, I think, should be of 
concern not just to you but to all Americans.
    Mr. Burchett. Do you think they would rather sever those 
cables or would they just tap into them and find out all of our 
secrets, I guess?
    Mr. Panetta. I think the more important effort for them is 
to tap in and get that information.
    Mr. Burchett. Okay.
    Well, why do you think they rely so much on techniques like 
information warfare and the covert special operations in cyber 
to confront the West? Because they are so effective, or is it 
just all they have?
    Mr. Panetta. No, you know, it is something we better get 
smart about, because that could very well be the kind of 
conflict we are going to have to face in the future.
    I mean, I know we focus on conventional wars, I know we 
focus on potential nuclear wars, but the Russians have 
developed a hybrid capability that I think is going to become 
the weapon of the future. It combines cyber with the ability to 
conduct covert operations, with the ability to have even the 
military involved to assist others. But it is all done on a 
covert basis.
    And it works very effectively. They have used in it in the 
Ukraine. They have used it in Syria. They have used it 
elsewhere.
    We need to develop that kind of hybrid capability. That is 
not to say that we do not have some of those same elements. 
Obviously, we have special forces; we have other technologies 
that are able to give us some capability. But I think the 
ability to put together an entire strategy, as they have done, 
using hybrid methods of warfare has proven very effective in 
their ability to produce chaos, to undermine stability, and to 
create the kind of situation that they can then take an 
advantage of.
    So, in many ways, hybrid warfare for the Russians is an arm 
of their diplomacy so that they can then go in and undermine 
the strength of whatever country they are dealing with. That is 
how they operate.
    Mr. Burchett. All right.
    Hey, thank you. I am out of time, but I just want to tell 
you what an honor it is. And I wish my folks were alive. They 
probably would not agree much on your politics, but they would 
dig the results that you get. So I wish they were alive to see 
this. This is really cool.
    Thank you, brother. And say ``hey'' to Jimmy tonight.
    Mr. Panetta. Thank you very much. I will say ``hi'' for 
you.
    Mr. Burchett. Yes, sir, brother. Thank you.
    Mr. Keating. Thank you.
    Mr. Burchett. Well, the South is the one place in the 
country where people do not speak with an accent. You know 
that, do not you?
    Mr. Keating. I am told we have some here in Massachusetts 
too.
    Mr. Burchett. If you get pulled over in Tennessee, just say 
``y'all'' and say, ``Where can I get a moon pie?'' and then--
they will probably still throw you in the back of the squad 
car, so--anyway.
    Thank you, Mr. Chairman.
    Mr. Keating. Or a key lime pie.
    Let's get serious here and recognize Mr. Costa from 
California.
    Mr. Costa. I want to thank the chairman of the subcommittee 
for this important hearing.
    And I think we are all honored, on a bipartisan basis, to 
have Secretary Panetta testify before us. His wealth of 
knowledge, experience, and expertise has obviously been well-
stated and--documented.
    And, Leon, it is an honor to have been your friend and have 
worked with you for over 30 years.
    And for all my other colleagues who are giving you all the 
credit for Jimmy, I will not tell them that in the Panetta 
household there has always been a partnership with Sylvia and 
it has been a team sport, in terms of service to our Nation and 
public policy. And so we know that Jimmy not only derives that 
from you but from his mom as well.
    Mr. Panetta. Thank you.
    Mr. Costa. Yes. Give her my regards.
    I want to take off on the--first of all, in your summary, 
you really talked about what constituted a plan that we used 
during the cold war, on a bipartisan basis, to confront the 
Soviet Union. And that plan, regardless from administration to 
administration, in terms of the foundations of that plan, was 
very successful, because it had continuity and it had 
bipartisan support, from administration to administration as 
well as in Congress, where politics, in those days when you 
served, tended to stop at the water's edge. Not so much these 
days, unfortunately.
    So I guess my question to you is, how would you suggest 
that we put, reinstitute, a bipartisan plan in place?
    I think you talked about what the tenets of that plan could 
constitute. I think, in doing so, we also--you just noted by my 
last colleague, who talked about the hybrid implementation that 
Putin has implemented to undermine the West, us and our allies 
in Europe--and you have to give him credit. He has taken a 
limited hand, and he has played it very well.
    So I am wondering--because I agree with you. I think the 
conventional weapons, for a lot of reasons, as we go forward 
are going to have less of an impact as our ability to deal with 
these hybrids efforts that involve high-tech and a lot of other 
things.
    I think we have repair work that we need to do on NATO. And 
I think that
    [inaudible] We both are active in the Transatlantic 
Legislative Dialogue. I would like to get your sense on how 
much repair work you think we need to do.
    You know, people forget that the 71 years of NATO is the 
longest--longest peacetime period in Europe in over 1,000 
years. And we helped that happen, with President Truman, as you 
noted, not just because we are good people, but that was in our 
own interest. And it still is in our own interest. And it is 
critical that we educate.
    And, finally, when we talk about an overall strategy, I 
sometimes--and this is no reference to any sort of ethnic 
community in the country, but I think Putin and company are 
kind of the Russian version of the Sopranos. And, in fact, I 
mean, you know, when you look at the 50 top pals of his and how 
they have taken so much of Russia's wealth and how much of that 
is in European banks and other places--and I have seen their 
yachts in the Caribbean and in the Mediterranean and the 
lifestyle they live.
    We know where a lot of those bank accounts are, and I am 
wondering if that could be a part of a hybrid strategy, to grab 
them where it hurts.
    Mr. Panetta. Good question, Jim. Let me try to do my best 
to try to mention what I think are the important areas that we 
need to stress.
    Look, first and foremost, obviously, we do have to maintain 
our military power. We have to be the strongest military power 
on the face of the Earth. That is critical. And it sends a very 
important message that the United States has the ability to 
respond to any threat, not only diplomatically but militarily 
if necessary. So maintaining a strong military. Developing, 
obviously, a hybrid capability I think is important as well.
    Second, I am a believer, as I stated, in alliances, in the 
importance of alliances. I think developing alliances is the 
key to our ability to respond to a number of flashpoints in the 
world.
    I think we are dealing with a lot of flashpoints right now, 
not just Russia. We are dealing with failed States in the 
Middle East, we are dealing with Syria, we are dealing with 
Iran, we are dealing with North Korea, we are dealing with 
Russia, we are dealing with China, we are dealing with cyber 
attacks, all of which are threatening our national security.
    I think one of the keys to be able to respond to that many 
threats, first of all, is to have the United States be a world 
leader. I do not think we should withdraw from leadership in 
the world. I think we have to be a world leader.
    And, as a world leader, I think we ought to be not only 
strengthening the NATO alliance, which is our primary alliance 
in dealing with Russia, but I also think we ought to be 
building new alliances. In Southeast Asia, we ought to be 
building an alliance with those countries to try to check 
China.
    And I think there is that possibility, if we work with 
those countries--when I was Secretary of Defense, I was trying 
to build that kind of relationship on a security basis so that 
we were working together on security areas. I think we could 
build an alliance in the Middle East, made up of moderate Arab 
countries, made up of Israel, to try to deal with the threat 
from Iran, to try to deal with the threat from terrorism. I 
think we can build an alliance in South America, in Africa.
    I mean, alliances are going to be the key to our ability to 
preserve peace and prosperity in the future. So I would stress 
that.
    Third, diplomacy. I think it is really critical that we 
have a strong diplomatic arm available and that we have good 
diplomats in these areas who represent the United States and 
who keep their ear to the ground and can tell us what kind of 
threats are out there.
    And I also believe very deeply in a strong intelligence 
capability. We just cannot do this unless we have information 
about what the hell our adversaries are up to. We cannot 
operate in the dark. No leader can operate in the dark. So 
getting that kind of intelligence is a good thing. It is not a 
bad thing, it is a good thing, to be able to have our spies and 
our sources and our capabilities out there trying to gather 
information on where these threats are and providing that to 
our opinion-makers.
    But, last, something that you mentioned that I think is 
really important is, somehow we have got to restore a sense of 
bipartisanship when it comes to our national security 
interests. During most of my career in the Congress, even when 
I was Secretary of Defense, I really worked to get bipartisan 
support with regards to what I was doing. And I did get 
bipartisan support, and it was very important.
    I think somehow we have to get back to that spirit of 
bipartisanship. I mean, I know the politics of today, and I 
know what all of you are putting up with, one way or the other. 
But, at some point, we really have to be concerned about this 
country. And, right now, I think Putin looks at the United 
States and looks at the polarization and the partisanship and 
the divide that has taken place in our country and sees that as 
weakness on the part of the United States.
    When we are together, when we are working together, there 
is no country stronger than the United States of America. So I 
hope at some point we can get back to a spirit of true 
bipartisanship when it comes to national security issues.
    Mr. Costa. Well, thank you. My time has expired, but I 
think your point is well-taken. I mean, he has exploited 
Western elections--been doing it in Europe for longer than he 
has been doing it in the United States--all with the intention 
to take our divisions and to undermine our strength of 
governing. And that is the limited hand that I think he has 
played pretty well so far.
    But I know, Mr. Chairman, my time has expired, but on those 
three categories, diplomacy, our NATO alliance, are we stronger 
or weaker than we were 3 years ago or 4 years ago?
    Mr. Panetta. Well, I worry, you know, that we have sent a 
signal. I mean, when I have gone abroad, our NATO allies are 
very concerned about the commitment of the United States toward 
the NATO alliance. And that is not a good--that is not a good 
thing. So it really is important.
    And I commend the Congress, because I think the Congress 
has spokayen pretty clearly about the importance of protecting 
NATO. I think it is important for the President of the United 
States to speak to that importance as much as possible so that 
our NATO allies know that the United States is going to be a 
partner and will be there if something should happen.
    Mr. Costa. Thank you.
    Mr. Keating. Thank you.
    You know, I want to thank all of our members for being so 
patient. And if you had to be patient and you had to be 
somewhere in the country to be patient, I would probably rather 
be in San Diego than many other places.
    The chair would like to recognize Representative Juan 
Vargas from San Diego.
    Mr. Vargas. Mr. Chairman, thank you very much. Can you hear 
me, Mr. Chairman?
    Mr. Keating. Loud and clear.
    Mr. Vargas. I want to thank you for holding this hearing, 
and the ranking member. I appreciate it very much.
    And, especially, Mr. Secretary, thank you for being here. I 
do think that I would be remiss, as my colleagues have already 
said, if I did not tell you about my affection toward your son, 
Jimmy. We all like him very much.
    Mr. Panetta. Thank you.
    Mr. Vargas. He is a wonderful Member and a good friend to 
all of us.
    You do have a unique perspective--and, obviously, it has 
come out in this hearing--because you were the Secretary of 
Defense, you were the Director of the CIA, and you were the 
White House Chief of Staff. So I thank you for your words and 
your perspective.
    And, unfortunately, I think you are correct that we are in 
a new cold war, which I think is sad and too bad. I think a lot 
of us believed, or wanted to believe, that when the Iron 
Curtain came down that we were going to be able to work with 
Russia. You know, Russia does have a lot of Western thought in 
it. You know, a lot of the bookays that we love, that we read 
in college, you know, Dostoevsky, Tolstoy, they are written by 
Russians. So a lot of us were hopeful, and, unfortunately, that 
hope turned to despair, I think, when they went hard-line, 
especially with Putin.
    Now, I have to say that I agree with everything that you 
have said about the asymmetric deals that this Putin has put 
on, but this feels different. Putting a bounty on U.S. soldiers 
to kill them, to me, feels different. When I read about this, 
when I heard about it, it was, I think, different, almost a 
red-on-blue attack.
    Could you comment about that? Because this, to me, does not 
feel the same as what he had been doing previously.
    Mr. Panetta. You know, in some ways, it is difficult to 
believe that an adversary would put bounties out there in order 
to kill U.S. men and women in combat. And it strikes me as 
Putin taking a very careless step. I mean, I think it is 
careless to think that--I mean, assuming that this is true. 
And, as I said, it sounds like something that might come out of 
his playbook. But I think it is an indication that Putin feels 
empowered to do things that he would not otherwise do.
    And because he does not pay a price, because, you know, we 
are not taking steps to make clear to him that this will not be 
tolerated, I think what it does is it gives him a sense that, 
yes, you know, we can try to do something that, you know, we 
may not have done before, but if it is successful and if U.S. 
men and women are killed as a result of this and if the United 
States is so depressed by our presence in Afghanistan that we 
remove our forces from Afghanistan, then it could play to his 
benefit.
    And I think that is the way he thinks. He does not think as 
a world leader; he really thinks as a former spy.
    Mr. Vargas. Yes.
    Mr. Panetta. And that is, I think, what led to this.
    Mr. Vargas. And, in many senses, it does not only seem 
careless but reckless too, I mean, incredibly reckless.
    Now, assuming for a second that it is true, that, you know, 
the intelligence comes back and says that this is what they 
were attempting to do, and, in fact, let's even say that they 
were even successful, God forbid they were, but let's say that 
they were--I know one of the things that we have looked at 
previously and we have not done is kicked Russia out of SWIFT, 
out of the banking system that we have that secures these 
transactions. We have always thought that he would act 
recklessly, and Medvedev and others have said, you know, you 
better not do that.
    What do you think would happen if we did take a pretty 
dramatic step to kick them out? I mean, you took a look at 
Iran. That is what we did to Iran, obviously. What would 
happen? How would he react?
    Mr. Panetta. Well, you know, it is that old story about, 
you know, the jackass that would not move, and the guy finally 
hit the jackass across the head with a stick, and somebody 
said, ``What the hell are you doing?'' He says, ``Well, I am 
trying to get its attention.''
    I think we may have to do something bold in order to get 
Putin's attention right now. Because I think, right now, Putin 
does not really believe that the United States is going to 
respond in a way that is going to really undermine, you know, 
Russia and undermine him.
    So I think it may be necessary to send a bold signal to 
Russia that he has crossed the line. I think when you take 
steps to put a price on the heads of our men and women in 
uniform, that is crossing a line that is unacceptable.
    Mr. Vargas. Yes.
    Mr. Panetta. And I think we do need to send Russia a very 
clear signal that that is not to be tolerated.
    Mr. Vargas. Well, thank you again. My time has expired.
    Mr. Chairman, maybe we need that 2-by-4 then to teach 
Russia what to do. Thank you again.
    Thank you, Mr. Secretary.
    Mr. Keating. The chair recognizes Mr. Sherman from 
California.
    Mr. Sherman. Mr. Secretary, thanks for your service, and 
thanks for donating your son to our institution.
    The loudest testimony on this we heard yesterday from 
Secretary Pompeo, whose decision not to come before the full 
committee speaks volumes about how the policymaking process in 
the White House and the policies they actually derive there are 
simply indefensible, cannot be defended.
    Russia and the United States have a long history of arming 
each other's enemies. Thousands of our troops died in Vietnam 
at the hands of Soviet weapons. Thousands of Russians died in 
Afghanistan in part because we
    [inaudible] The Mujahedeen. But that was at a time when the 
Soviet Union and the United States were enemies and treated 
each other as enemies.
    For several years, Russia is known to have been providing 
weapons to the Taliban, and, while occasionally the Taliban 
strike against ISIS, for the most part those weapons are used 
to kill Americans. But now they have added this additional 
obscenity of putting a bounty on the head of American soldiers.
    And so they are acting like an enemy. And they have learned 
that they can act like an enemy and we treat them like a 
friend. The President bestows great honor and friendship; then 
he brings up the G8. We still allow our financial institutions 
to lend money to the Russian State. And we had a law requiring 
that sanctions be imposed on the sovereign debt issue, and the 
Treasury imposed the lightest possible version of these that 
still allow for Americans to invest in Russian sovereign debt 
and American banks to lend
    [inaudible] To a Russian State enterprise.
    Of course, those sanctions were
    [inaudible] Weapons. Indeed, one of those
    [inaudible] May have killed one of their dissidents in 
Britain using chemical weapons. And, of course, there is a 
pipeline being built that will make Germany dependent upon 
Russian natural gas.
    We have limited sources and many flashpoints in the world; 
I do not think Russia is our only problem. We can have primary 
sanctions, where we take action ourselves, and secondary 
sanctions, where we try to convince our allies to do something 
that is
    [inaudible]. We can have economic action. We can sell 
weapons or provide weapons to Russia's enemies. We can do troop 
deployments
    [inaudible] Whole panoply
    [inaudible].
    We should at least make it clear that they should not be 
allowed in the G8 and that American financial institutions 
should not be lending money to the Russian State or its State-
owned enterprises. Would that be a starting place?
    Mr. Panetta. You know, you have outlined the options that 
are available very well. And I do not think there is any 
question that any one of those options, whether it was to take 
away that invitation to the G7, G8, or whether it is to tighten 
up the sanctions in a way that really would have an impact in 
terms of Russia, I think doing that would send a message that 
the United States is not going to simply look in the other 
direction while the Russians do what they are doing. That 
signal needs to be sent.
    Mr. Sherman. I will point out that the tough sanctions on 
Russian sovereign debt are thought to increase their borrowing 
costs by about half a percentage point, which in the financial 
world is very solid, and that we in the House passed my 
amendment that would accomplish that. It was taken out in the 
Senate. We will have a chance to do that again with the NDAA 
bill.
    Mr. Secretary, would we also
    [inaudible] Providing more weapons than we have to Ukraine 
and to Georgia?
    Mr. Panetta. Obviously, I think our ability to provide 
military aid to the Ukraine is extremely important in sending 
that signal to Russia that we are not going to allow the 
Ukraine to be taken over by Russia. And I do not think there is 
any question that we ought to be looking at what additional 
military aid could we provide that would assist the Ukrainian 
forces in their efforts to try to maintain their independence.
    Mr. Sherman. Thank you.
    And I thank the chair for letting me participate even 
though I am
    [inaudible].
    Mr. Keating. Thank you, Mr. Sherman.
    I will ask the ranking member if he has any closing 
statements. Otherwise, I will have a few closing remarks 
thanking the members that participated and you, Mr. Secretary.
    You know, there was talk about bipartisanship. You can see 
through this committee this collegiality, civility. We do not 
agree on everything, but you can see, I think, and the American 
public can see Members of Congress do work together and we do 
understand the importance of that.
    I do want to just have a couple of closing remarks. Despite 
that collegiality, this is as serious as it gets as an issue. 
This has been, to me and I think most Members, just a 
heartbreaking and anxious time, with the information that 
bounties could have actually been placed on our military's 
head. But what we are suffering through is nothing compared to 
what our troops that are serving and the family members of the 
troops who are lost have been going through. And I just want to 
emphasize our hearts and our conviction. We are with them.
    And this is not going to go away. So many issues go away. 
This issue is going to be like the coronavirus. This is not 
going away, I will tell you that. As Members of Congress, this 
will not be the news of the day until we get answers, and we 
will continue to do that.
    There is one thing they should know too. At least in my 
view, the perception that somehow something came across the 
President's desk and he missed it just does not cut it with me.
    I mean, just in the period between that briefing at the end 
of February that was on his desk and what transpired the same, 
that is one swing and miss. There were six calls in 
preparation, person to person, between our President and 
Putin--six.
    Seventh thing, you know, before the G7 discussions and the 
invitation, there was another period where you had to sit down 
and say, ``Hey, this is going on'' before you give that 
invitation; before you do something like cut the European 
deterrence funding, which is one of those popular programs that 
deters Russia and brings our allies together; before we went to 
informing the British that this was a threat to them. Are we to 
believe that our intelligence reached out to the British and 
said, ``By the way, this is a serious threat, we want you to 
know,'' and they never did it that to the President?
    They had to have done it before they pulled out a quarter 
of our troops--before he wanted to pull out a quarter of our 
troops in Germany. He knew the impact of that and what it 
meant.
    And it had to have occurred before or after his top 
security officials all gathered together, which we know now in 
a meeting in March, and planned options to react to this.
    Those are 11 things off the top of my head. That is not one 
swing and miss. Those were 11 things. And that is just, I am 
sure, a partial list.
    The other thing that has become clear from this hearing and 
the ones that preceded it that we should have great confidence 
in: We absolutely--and there is no doubt in my mind--have the 
ability to do things to counter this and counter it 
effectively. It is not a question of being able to do it; it is 
a question of doing it.
    And I am quite optimistic that a whole array of options, 
many of them, Mr. Secretary, that you brought up today that are 
so important, can be done, and they will be effective.
    And the last point is, we have to do it. We have to act 
now. Because, as we are discussing this, even with the best of 
our oversight, the Russians are still, as we speak, attacking 
and preparing to attack further our electoral process in this 
next election. That is a given. Our own intelligence is clear 
and consistent with that. And we have to understand that they 
will be emboldened by this and further endanger our safety and 
the safety of our allies and the safety of our troops. We 
cannot wait. So there is an urgency.
    We will continue to do our best. Your presence here today 
with us helps a great deal. We hope to continue to work with 
you and get your advice, your counsel, because it is so 
important, and to move ahead. The people of the United States, 
the people that serve us, their families deserve nothing less.
    So, with that, I adjourn and thank everyone for being here.
    By the way, if I could, as I mentioned at the beginning, 
there will be 5 days to submit statements, extraneous 
materials, and questions subject to the rules of this 
committee. So I repeat that as well. They just have to be done 
by email.
    Mr. Keating. With that, we are adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 
                                


            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             


                                 <all>
</pre></body></html>
